1
No.

IN THE
SUPREME COURT OF THE UNITED STATES

NELSON VIERA - PETITIONER
(Your Name)

VS.

MARK INCH, SEC. Fla. DEPT. OF CORRECTIONS - RESPONDENT(S)
PROOF OF SERVICE
I, Nelson Viera, do swear or declare that on this date, January 2.5,2021, as
required by Supreme Court rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERRTIORARI on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid.
The names and addresses of those served are as follows:

Off ICC 0 f TU-e CUrK ,UjasUi"v\cjVoL'i /P-C, <L0&M3
Office of the Attorney General, Suntrust International Center, 1 S.E. 3rd Avenue,
Suite 900, Miami, Florida 33131
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on January 'Z ^5,2021.

(Signature)

20

7

I'H '

No.

IN THE
SUPREME COURT OF THE UNITED STATES

NELSON VIERA - PETITIONER
(Your Name)

VS.

MARK INCH, SEC. Fla. DEPT. OF CORRECTIONS - RESPONDENT(S)
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition for
Writ of Certiorari contains 7,159 words excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 2Jo , 2021.
Nelson Viera District Court# M35 846

21

